No. 19-1289
In The
Supreme Court of the United States
GEORGE ANDREW BENAVIDE,
PETITIONER
V.

UNITED STATES ATTORNEY GENEAL WILLIAM BARR, et al
DEFENDANT(S)

On Petition For Writ OF Certiorari
To The United States Court Of Appeals
For The Fifth Circuit

PETITION FOR REHEARING

GEORGE ANDREW
BENAVIDES
PETITIONER, Pro se
1308 E. Common St, Suite 205
Mail Box 408
New Braunfels, Texas 78130
(210) 322-9328
(210) 954-23268
benbarr!95113 l@outlook.com

JEFFREY B. WALL
COUNSEL OF RECORD
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT
OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ,gov
Telephone: 202-514-2217

RECEIVED

net 1 5 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

No. 19-1289
In The
Supreme Court of the United States
GEORGE ANDREW BENAVIDE,
PETITIONER
V.
UNITED STATES ATTORNEY GENEAL WILLIAM BARR, et al
DEFENDANT(S)

On Petition For Writ OF Certiorari
To The United States Court Of Appeals
For The Fifth Circuit

PETITION FOR REHEARING

Pursuant to Rule 44 of this Court, the Petitioner, hereby respectfully
petitions for rehearing of this cad before full nine-Member Court.
1. For twenty-five years (25) the Petitioner has been retaliated against,
illegally spied on, invaded of his privacy, tortured, falsely imprisoned,
exposed to society and the government without due process of the law,
without permission from a federal judge’s court order, without probable
cause or without his consent. This case Is not just about the Petitioner,
It’s about the lives of the Americans people who are being tracked,
targeted and tortured daily by these exotic space weapons, space
weapons, satellite weapons illegally used by the Respondents and other
private corporations. Why is this going on? Who will be the next victim?
Will it be you, your family members or friends next? Why isn’t the
federal government allowed to be exposed? When is it going to stop?
2. This case is unusual and involves a challenge by the Respondents who
violated the Espionage Act of 1917 when they illegal spied on the
Petitioner during the Gulf War while serving in the United States Marines
from 1993 until 1998 when he was honorably discharged. The

3.
4.

5.

6.

Respondents bribed a lawless family member of the Petitioner to agree to
a contract to spy on the Petitioner as an experiment for the rest of his
life. The contract agreed upon between the Petitioners family member
and the Respondents is null and illegal, because the Petitioner was not
involved in the signing of the contract and the Petitioner was over the age
of eighteen to do his own contractual agreements. Knowing all this why
did the Respondents entrap the Petitioners family member on a bribe to
agree to a contract that they knew was illegal and null? Why weren’t all
male recruited members who enlisted with the Petitioners all treated the
same way the Petitioner was. See Exhibit #1 list ofmembers enlisted
with the Petitioner on January 10, 1994.
After the Petitioners obligation ended in the United States Marines in
1998 with an honorable discharged, why did the Respondents continue
to spy on the Petitioner after his obligation ended in the military?
On May 12, 2000 the Petitioner filed a lawsuit in the United States
District Court For Western District of Texas San Antonio Division to try
to stop these crimes committed against him by the United States Navy
and United States Department of Veterans Affairs. The Federal Judge
Edward Prado threw the case out. Why would a federal judge throw a
case out of court that involved espionage or illegal spying and torturing
of an American citizen? From that date on until this current time several
federal officials: Two United Congressman, Four United States
Presidents, FBI, and United States Senators were asked to investigate the
Petitioners complaint but they neglected to do so. Why?
What is incredibly insane and frivolous is that the United States
Department of Veterans Affairs neglect to investigate the Petitioners
complaint that he was illegally spied on and tortured during and after his
military career. The DVA wrongfully diagnosed the Petitioner as
delusional prism and compensates the Petitioner at a One Hundred
percent status. Why didn’t the DVA investigate the crime instead of
compensating the Petitioner?
Because the Petitioner made these complaints since the year 2000 to
federal officials he has since then been a victim of Retaliation and
criminal conspiracy by the Respondents to cover up his federal
complaints submitted to federal officials. They are attacking the
Petitioner with sonic weapons, satellite weapons, electronic harassment,
and neighborhood electronic harassment to attempt to day and night to
manipulate his thought or kill the Petitioner to cover up this court case.
All federal officials and evidence including his Book: The 1994 Hacked
Mind by G.A Benavides listed in the Petitioners Writ of Certiorari tells
this court that the Respondents and federal officials neglect to face the
facts that the Petitioner and Americans are being tracked, stalked,
targeted, tortured and even kill with space exotic weapons and electronic

harassment. Instead the FBI calls this insane and asked that people
calling their office see a psychiatrist. Why?
7. On October 2, 2001, United States Congressman Dennis Kucinich from
the State of Ohio attempted to pass a bill to protect Americans to what
the Petitioner and Americans are experiencing now. Why would the
legislative body of the United States Federal Government not pass a law
to protect Americans?
8. In February 2017 Dr. Michael Hoffer from the University of Miami Health
System first treated U.S Diplomats hurt in Cuba by exotic space weapons
or sonic weapons. See You tube Video Title: Doctors Who First Saw U.S
Diplomats Hurt In Cuba Say Symptoms Cannot Be Faked, reported by
NBC News Published on December 12, 2018.
9. Because these crimes of space weapons, exotic weapons, electronic
harassment are being used on the Petitioner and Americans. The
Petitioner contacted Dr, Michael Ellis Hoffer, located at 1120 Northwest
14th Street, Floor 5, Miami, FI 33136. On October 7, 2020 a recorded
statement clarified that Dr Michael Ellis Hoffer agree to treat the
Petitioner, George Andrew Benavides on October 29, 2020 as a victim of
exotic weapons, space weapons and electronic harassment on The
conversation was recorded by the Petitioner because the FBI does not
recognize these space crimes or electronic harassment committed against
Americans but instead call Americans inane for reporting this. This court
has to hear evidence that Dr. Michael Ellis Hoffer is treating patients as
of 2019 in the United States who call themselves "Targeted Individuals”
and who are victims of exotic weapons, satellite weapons and electronic
harassment. See attached USB drive for the evidence ofDr. Michael
Hoffer, and whistleblowers of victims ofsatellite weapons and electronic
harassment
CONCLUSION
If the Petitioner made complaints since the year 2000 about being
spied on, tracked, targeted and tortured by exotic weapons, satellite
weapons and electronic harassment and federal officials such as the FBI
neglect to investigate these crimes. Then, wouldn’t this be fraud if a
doctor treats and diagnoses patients who claim to be targeted individuals
and validates these complaints? Then why do you have local law
enforcement officers working for the local states detain or involuntary
admitting Americans into mental institution for reporting these crimes of
being attacked by satellite weapons, exotic harassment, or electronic
harassment. Wouldn’t this be fraud by psychiatrist for wrongfully
diagnosing and medicating Americans who are victim of these space
weapons and electronic harassment if Dr Michael Hoffer is validating and
treating “Targeted Individuals.

So, you see the Petitioners due process of the law has been violated
and this court will never see the evidence that was supposed to be
submitted to lower courts by granting the Petitioner the right to proceed
into the discovery phase of federal law and civil procedure to obtain
documents, records, contracts, blue prints, tapes, video tapes, space
cameras and satellite pictures, tracking devices used to spy, track, target
and torture the Petitioner and other Americans. Instead we have a case
of pawn off between United States Presidents, Bill Clinton, George W,
Bush, Barack Obama and Donald Trump and federal agencies. If the
Petitioner ask two United States Congressmen to investigate crimes
committed against him by federal agencies such as the U.S Navy and
Department of Veterans Affairs and they neglect to investigate, then
someone is hiding a criminal conspiracy, especially when society and the
government can illegally intercept your thoughts to track, target and
torture with satellite weapons and electronic harassment.
I am asking that this court reconsider and rehear this case based
on this unusual and new evidence that in fact the Petitioner and other
Americans are being targeted individuals and are victims of illegal
spying, espionage, torture and treason. I am asking that this court
restore Law and Order and grant the demand and settlement submitted
in the Petitioners original petition filed in the United States District Court
Western District of Texas San Antonio Division Case No. 5:19-CV-440DAE.
For the foregoing reasons, the petition for rehearing should be granted

Respectfully submitted,

GEORGE ANDREW BENAVIDES
PETITIONER, Pro se
1308 E. Common St, Suite 205
Mail Box 408
New Braunfels, Texas 78130
(210) 322-9328
(210) 954-23268
benbarr!95113 l@outlook.com

JEFFREY B. WALL
COUNSEL OF RECORD
ACTING SOLICITOR GENERAL
UNITED STATES
DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ,gov
Telephone: 202-514-2217

CERTIFICATE OF PETITIONER/ PRO SE
Pursuant to Rule 44, Petitioner/Pro se certifies that the Petition is
restricted to the grounds specified in the Rule with substantial grounds not
previously presented. Petitioner/Pro se certifies that this Petition is presented
in good faith and not for delay.

George Andrew Benavides
Petitioner, Pro se
1308 E. Common St, Suite 205
Mail Box 408
New Braunfels, Texas 78130

